<html>
<title> - UNCLE SAM WANTS YOU!: RECRUITMENT IN THE FEDERAL GOVERNMENT</title>
<body><pre>[Senate Hearing 111-355]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-355
 
                         UNCLE SAM WANTS YOU!:
                 RECRUITMENT IN THE FEDERAL GOVERNMENT

=======================================================================



                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 7, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
51-024                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

        Lisa M. Powell, Chief Counsel and Acting Staff Director
            Thomas J.R. Richards, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
                   Benjamin B. Rhodeside, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     3
    Senator Burris...............................................    16

                               WITNESSES
                         Thursday, May 7, 2009

Hon. John Berry, Director, U.S. Office of Personnel Management...     4
Susan L. Duncan, Director, Civilian Personnel Management, Office 
  of the Deputy Chief of Staff, U.S. Department of the Army......     7
Gail T. Lovelace, Chief Human Capital Officer, U.S. General 
  Services Administration........................................     9
Max Stier, President and Chief Executive Officer, Partnership for 
  Public Service.................................................    26
Linda E.B. Rix, Co-Chief Executive Officer, Avue Technologies 
  Corporation....................................................    28

                     Alphabetical List of Witnesses

Berry, Hon. John:
    Testimony....................................................     4
    Prepared statement...........................................    39
Duncan, Susan L.:
    Testimony....................................................     7
    Prepared statement...........................................    43
Lovelace, Gail T.:
    Testimony....................................................     9
    Prepared statement...........................................    52
Rix, Linda E.B.:
    Testimony....................................................    28
    Prepared statement...........................................    70
Stier, Max:
    Testimony....................................................    26
    Prepared statement...........................................    58

                                APPENDIX

Background.......................................................    88
National Council on Disability, prepared statement...............    93
Project Management Institute, prepared statement.................   105
Questions and responses for the Record from Mr. Berry............   111


                         UNCLE SAM WANTS YOU!:

                 RECRUITMENT IN THE FEDERAL GOVERNMENT

                              ----------                              


                         THURSDAY, MAY 7, 2009

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:31 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Voinovich, and Burris.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The Subcommittee on Oversight of Government 
Management, the Federal Workforce, and the District of 
Columbia, will come to order.
    I want to welcome our witnesses with much aloha and thank 
you for joining us today to discuss Federal Government 
recruitment. This is such an important issue that often does 
not receive the attention it deserves, and I appreciate your 
work on this topic. And I just have a feeling that this new 
team will run with it and so will we here in the Congress. I 
look forward to great years for the workers of our government 
and for all of you.
    I cannot think of a better time for us to focus on Federal 
recruitment than during Public Service Recognition Week, which 
we are in at the present time. This week, we honor the 
dedicated men and women working in Federal, State and local 
governments who are the bedrock of our Nation's workforce.
    Around the country, people are taking time to recognize the 
contributions of public servants and promote careers in public 
service. For example, there is an exhibit on the National Mall 
this week, highlighting more than 100 Federal civilian and 
military agencies through the weekend.
    Recruitment is the lifeline of a vibrant and talented 
workforce from every entry level position to the senior 
executive service. Finding talented and dedicated employees is 
essential to carrying out the missions of Federal agencies.
    The Federal Government offers competitive benefits and 
recruitment incentives, which helps to make it an employer of 
choice. However, if agencies are not doing the leg work of 
recruitment and creating a candidate-friendly process, they may 
be undermining their appeal. While there are pockets of Federal 
agencies that see the value of investing in these areas, all 
agencies must do better.
    Too many agencies take a passive and reactive approach to 
recruitment. When a vacancy occurs, they post lengthy and 
confusing job announcements on a Web site and just hope the 
right people apply. Agencies should develop forward-looking 
strategic plans that assess critical skills, gaps, and target 
highly qualified populations.
    Such plans should take into account both expected and 
unexpected vacancies. Human resources professionals need better 
training to develop these strategic efforts. Managers must be 
engaged throughout the process to ensure that the skills they 
seek are reflected in job advertisements and applications.
    The Federal Government also needs to make the hiring 
process more user friendly. Candidates should not have to 
abandon their Federal job search because of frustration with 
the process. Vacancy announcements should clearly explain the 
job's duties, qualifications, and requirements to apply. 
Agencies must work to make the hiring process simpler and 
quicker while protecting the merit system principles. We must 
remember that the very best candidates may have a variety of 
career opportunities. They are not likely to wade through a 
slow, complicated, and uninformative process. Now, more than 
ever, agencies have an opportunity to make the Federal 
Government the employer of choice.
    In his inaugural address, President Obama encouraged 
renewal, and a renewed spirit, of national service for this and 
future generations. This renewed spirit of service is 
attracting people who otherwise may not have considered Federal 
service.
    We cannot afford to have State recruitment strategies 
hinder our ability to build the next generation of Federal 
employees. The Office of Personnel Management (OPM) estimates 
that 30 percent of the Federal workforce will retire in the 
next 5 years. We already have critical skills gaps in many 
fields, including acquisition, foreign language, engineering, 
human resources, information technology, and veterinary 
medicine. Many highly qualified professionals in these fields 
may be searching for new jobs in this difficult economy. 
Improving Federal recruitment will begin to close these 
critical skills gaps.
    To help agencies address problems in Federal recruitment 
and hiring, Senator Voinovich, and I recently introduced the 
Federal Hiring Process Improvement Act--S. 736. Among other 
provisions, the bill addresses Federal recruitment issues by 
requiring Federal agencies to develop strategic workforce plans 
that include recruitment strategies and a focus on critical 
skills gaps. Additionally, S. 736 would require streamlined, 
clear, and concise job announcements that are free from 
confusing jargon and posted and targeted in strategic 
locations.
    Agencies need to adapt, just as the private sector has, to 
the culture of the next generation of Federal workers. For 
example, agencies should use inexpensive new media marketing 
tools to attract young people into Federal service, and 
agencies should create new pipelines into the job market by 
targeting candidates who might not have considered public 
service until recently. The Federal Government is the largest 
employer in the United States, and Federal service is a noble 
profession.
    This week, Public Service Recognition Week, we celebrate 
those men and women who make a commitment to serve their 
government in the military or civilian service. In honoring 
these employees, we have an opportunity to inspire the next 
generation to pursue Federal careers.
    I look forward to hearing about the efforts made by OPM to 
address shortcomings in Federal recruitment, recommendations 
from our other witnesses for improvements, and thoughts on the 
Federal Hiring Process Improvement Act. So I want to welcome 
the witnesses here on this panel and also on the following 
panel.
    Senator Voinovich, for your opening statement.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Senator Akaka.
    This week, we celebrate our Nation's public servants. 
Tomorrow, I will be in Cleveland meeting with a lot of Federal 
employees to honor several that have gone way beyond the call 
of duty. I think it is extremely important that we honor these 
folks that have made a difference for us.
    The legislation that you talked about is another chapter in 
something that the two of us have been working on for almost a 
decade, and that is to improve the environment for people 
coming to work for the Federal Government, recruiting them, 
retaining them, and rewarding them. And I am running out of 
time; I am leaving. I have a little bit less than 2 years, and 
I really would like to see that legislation pass because I 
think it is needed.
    Mr. Berry, I know that you are new to the job over there, 
but the fact is, we have to get this done. I am so tired of 
year after year of running into people who say the hiring 
system does not work.
    We have been dealing with this human capital crisis, and 
roughly one-third of the government's top scientists, 
engineers, physicians, mathematicians, economists, and other 
specialized professionals are going to be leaving in the next 5 
years. The economy may have some impact on their decision 
making, reflective of the overall U.S. labor force. And while 
the economy may lead some to extend, as I mentioned, their 
Federal careers, we need to think about this wonderful 
opportunity that we have. We should take advantage of it.
    Struggling to meet the challenges of transferring knowledge 
to the next generation, agencies are also being tasked with 
hiring individuals to ensure the stimulus dollars are well 
spent. We are interested in what is happening in that regard, 
although, I think we found out, Senator Akaka, that the 
majority of that money is going out for Medicaid and I think 18 
percent for education. But there are departments that we need 
to be looking at. In meeting our hiring challenges, the 
government must target its effort to recruit the best and 
brightest from the increasing number of employees entering and 
re-entering the job market.
    I am hoping that this hearing today will shed some light on 
where we are at.
    Mr. Berry, you have had a chance to be in the saddle just a 
short time, but I'm interested in hearing your snapshots of 
what you see your challenges are.
    Ms. Duncan, as you know, I have worked tirelessly on that 
National Security Personnel System (NSPS) to improve 
performance in the Department of Defense (DOD). It goes back a 
long time and many hours with Gordon England. And I am 
interested to see how that is coming along because, I hope, as 
a professional organization, where people are interested in 
coming to work and being rewarded for the work that they do, I 
think that is an added benefit of attracting the right people 
to the Defense Department, and perhaps maybe look at some other 
departments.
    Ms. Lovelace, you and I have talked a lot, and I am 
interested to see what you folks are doing.
    So thank you, Senator Akaka.
    Senator Akaka. Thank you very much, Senator Voinovich.
    We have with us on this panel, John Berry, who is the 
Director of the Office of Personnel Management; Susan Duncan, 
who is the Director of Civilian Personnel Management for the 
Army; and Gail Lovelace, who is Chief Human Capital Officer of 
the General Services Administration.
    As you know, it is a custom of this Subcommittee to swear 
in all witnesses, so I ask you to please rise and raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Berry. I do.
    Ms. Duncan. I do.
    Ms. Lovelace. I do.
    Senator Akaka. Thank you. Let the record note that the 
witnesses responded in the affirmative.
    Before we begin, I want to remind you that although your 
oral statement is limited to 5 minutes, your full statement 
will be included in the record.
    Mr. Berry, will you please proceed with your statement?

   TESTIMONY OF HON. JOHN BERRY,\1\ DIRECTOR, U.S. OFFICE OF 
                      PERSONNEL MANAGEMENT

    Mr. Berry. Mr. Chairman and Senator Voinovich, thank you so 
much for the opportunity to be here with you today, and I want 
to thank both of you for your incredible leadership on creating 
Public Service Week and allowing us to honor and recognize the 
people who serve our country day in and day out. And thanks to 
each of you for your leadership over the years and all that you 
have done there.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Berry appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    It is also an honor to be at this table with both Ms. 
Duncan and Ms. Lovelace, who have forgotten more about human 
resource management than I will ever learn. They both have been 
leaders in this area, and I am very honored to be with them 
both today, look forward, and am excited to work with both of 
them in the months and years ahead.
    I appreciate you giving us the opportunity to share with 
you my commitment as the recently confirmed director of OPM to 
create a dynamic and responsive recruiting strategy and hiring 
process. I am convinced there is no other priority more 
important than making the Federal recruitment and hiring 
process as transparent, efficient, effective, and user friendly 
as possible, from the perspective of both the job applicant and 
the Federal agencies that need these critical skills to 
accomplish their missions.
    In my short time, I have learned a lot about what OPM needs 
to do to help us move forward into the 21st Century. We are at 
the table today with two agencies that are both leaders in this 
effort and there is much progress to be done.
    Your legislation, I think, is a great first step, and it 
would be my hope that we can actually accomplish almost 
everything in your legislation through administrative action 
this year, and we are going to work to do that. So I look 
forward to working with you and your staff to, hopefully, 
advance this as quickly as we can.
    To show you how seriously we have taken the challenge in 
the past year at OPM, not necessarily me, but our wonderful 
staff there have done a couple things, and many of them in 
concert with folks at this table.
    OPM, in collaboration with the Federal Acquisition 
Institute, introduced the idea of working as one Federal 
Government to recruit and hire a contract specialist at the 
entry level. Representatives--we brought together folks from 
the acquisition community, agencies throughout the government, 
and they tackled this down, and they were able to take a 75-
page position description down to four pages and get it into 
plain language.
    It was an amazing process. I have been very impressed with 
it. I have shared it with the Office of Management and Budget 
(OMB). I have discussed it with the senior staff at the White 
House. This is something we want to take, and take this process 
throughout the government. It has been an incredible success, 
and it is one that we can build upon in the future.
    Building on that, then OPM worked with our Federal agencies 
in the government to take on 20 other mission-critical, 
heavily-recruited occupations to, again, sort of achieve that 
plain language objective, and have been able to do that, 
essentially abolishing the old knowledge, skills, and abilities 
approach and the essays that were involved with that, and 
moving to a resume-based approach that allows plain English. 
You and I could go on the Web site, read them, know exactly 
what we are applying for, and develop and target our resume 
accordingly.
    Some of these initiatives that we have talked about here, 
we keep in mind, as both senators have mentioned, in the dark 
challenges we find ourselves on the economic front is also a 
huge opportunity for us on the recruitment front right now, and 
we need to take advantage of that as we move forward.
    We also have an opportunity and a responsibility to help in 
some areas. I am specifically interested in thinking about a 
number of the layoffs that are being faced in the Michigan, 
Detroit, Ohio areas of people who are in the car industries. 
These are engineers and some of our best and our brightest.
    Well, we have a need in all of our Federal agencies. And 
one of the things I am going to work with my colleagues on is 
to see if we can create a job fair this summer, where we can 
try to identify some of those people who might have been laid 
off from the auto industry, or who are threatened with layoffs, 
to let them know, and see if we can match those skills up with 
the Federal Government and get them into jobs where they can do 
a great job.
    Finally, I would like to just touch quickly on student 
hiring. While the numbers are not as dire as is often reported, 
we nonetheless need to do much better in terms of not only 
drawing students into our intern programs, but then converting 
them into permanent hires when they are outstanding 
individuals.
    One of our key initiatives that will take place this June 
is to pull academic leaders together from vocational, 
technical, high schools, community colleges, and universities 
to discuss with them how we can do this right and how we can 
build that, and working with some of the programs that the 
Partnership for Public Service has put in place. We need to 
ensure the academic world clearly understands our needs, our 
pipeline, and can match up with them the resources.
    Finally--and I apologize, I am running out of time real 
quickly. Just to touch on something I am going to immediately 
put in place. You have heard of tiger teams. We are going to 
create a new team idea called a wolf pack. I am going to break 
through the silo approach that we have in our agency at OPM, 
and we are going to draw the strongest people from each of our 
silos at OPM, create a wolf pack, and challenge them to take 
down the elk of hiring process, which has been an ongoing 
nightmare to all of us over so many years.
    My hope and my pledge to this Subcommittee, and to my 
colleagues at the table, if they are going to help, is I hope 
this year we can nail this, built on what has already been put 
in place, but then take out whatever else we need to do to get 
this done so that throughout the government, we have a clean, 
clear hiring process, and I am very excited by that.
    We need to do that, obviously, without sacrificing our 
merit system or our veterans' preference programs. My pledge to 
you is that we will be very sensitive and careful as we sculpt 
that and do that. But I will look forward to coming back here a 
year from now, and hopefully with Ms. Duncan and Ms. Lovelace, 
where we can show you--rather than talking about what we hope 
to do, we will show you what we have done. And I look forward 
to doing that.
    Thank you, sir.
    Senator Akaka. Thank you very much, Mr. Berry, for that 
enthusiastic testimony.
    Now, we will hear from Ms. Duncan. Please go ahead with 
your testimony.

 TESTIMONY OF SUSAN L. DUNCAN,\1\ DIRECTOR, CIVILIAN PERSONNEL 
     MANAGEMENT, OFFICE OF THE DEPUTY CHIEF OF STAFF, U.S. 
                     DEPARTMENT OF THE ARMY

    Ms. Duncan. Senator Akaka, Senator Voinovich, thank you for 
the opportunity to appear before you today on behalf of the 
Civilian Personnel of the Army. Army civilians provide vital 
support to soldiers and families in this era of persistent 
conflict. They share full responsibility for mission 
accomplishment by delivering combat support and combat service 
support at home, abroad, and on the battlefield. More than 
ever, Army civilians are an absolutely essential component of 
readiness. Today, the Army Civilian Corps is over 287,000 
strong with 5,600 currently serving in harm's way in the U.S. 
Central Command area of operations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Duncan appears in the Appendix on 
page 43.
---------------------------------------------------------------------------
    My testimony today provides you my assessment of the 
challenges facing the Army Civilian Corps, the human capital 
strategy, and supporting actions the Army will undertake in the 
coming years to address these challenges. I will share some key 
data that reflect the scope of our recruitment challenges, as 
well as some key performance metrics. Most importantly, I will 
share initiatives that the Army has taken to invigorate its 
outreach recruitment efforts for the civilian talent it 
requires.
    Our strategic human capital planning tools are some of the 
best analytical and forecasting capabilities in the government 
and have been adopted by OPM for government-wide use. In 
addition, our approach to workforce planning has been adopted 
for training government agencies by OPM and was recognized by 
the Human Capital Management symposium for Defense.
    Together with the capabilities of our tools and our 
comprehensive approach to workforce planning, we have been able 
to make a significant difference in several key decision areas. 
A few examples include the areas of base realignment and 
closure planning; the sizing of the overall requirements for 
the civilian hiring needed to sustain our capabilities; in-
depth assessment of mission-critical occupations for 
identifying the shortfalls and the needed mitigation 
strategies; projected retirements; attrition rates; intern 
allocations; and succession planning. In addition, we have also 
completed competency assessments of over 45,000 positions in 
mission-critical occupations.
    In 2008, the Department of the Army Civilian Human 
Resources professionals filled over 122,000 recruitment 
actions, 48,000 of which were external hires new to the Army. 
To fill these positions, the Army opened 81,620 vacancy 
announcements. Almost 6.2 million applications were submitted 
and processed. This represents an average of 64 applications 
per vacancy. While there is rarely a vacancy that does not 
attract some applicants, there are critical, hard-to-fill jobs 
for which traditional recruiting methods do not produce 
sufficient numbers of well-qualified applicants.
    We have successfully grown the Army civilian workforce over 
the last few years; yet, our capacity is significantly stressed 
to meet known and projected hiring initiatives over the next 
few years. The Base Realignment and Closure Act of 2005 (BRAC) 
will require the movement of over 23,000 positions to different 
geographical areas.
    Our analysis of past BRAC actions indicated that, 
traditionally, only about 30 percent of the current workforce 
will move with their current organization. This projection may 
move upward based upon today's economy. We project that over 
56,000 additional BRAC recruit actions must be filled between 
now and Fiscal Year 2011 to provide commanders the talent they 
need to meet critical missions. This is in addition to the over 
120,000 actions needed to sustain current operations. The Army 
projects hiring up to 4,000 employees as a result of the 
American Recovery and Reinvestment Act and a significant number 
of new civilians as part of the current insourcing initiative.
    Our analytic and forecasting capabilities, as well as our 
approach to workforce planning, has helped the Army join the 
ranks as one of the best places to work in the Federal 
Government in 2007. This ranking was determined by the 
Partnership for Public Service and American University's 
Institute for the Study of Public Policy Implementation.
    We regularly project approaching retirements and hiring 
needs with a significant degree of precision. These projections 
help target recruitment needs and serve as the basis for 
allocation of centrally-funded intern positions. Our 
occupational hiring levels are tracked against the projected 
recruitment needs, making adjustments as required. The army 
civilian occupational requirements are also evaluated against 
high-demand occupations in the civilian labor force so that we 
can develop future recruitment strategies ahead of potential 
shortfalls.
    The Army civilian workforce relies on automated tools and 
technology to manage our hiring processes. We adopted a single 
resume format that can be used for any vacancy, which the Army 
civilian workforce has. It is then easy to self-nominate for 
any vacancy with this resume on file. We are exploring options 
today that will more specifically target candidate pools and 
data-mined existing resume repositories to identify potential 
candidates that possess the competencies we need.
    While applicants are required to use Web-based resume 
builder to apply for positions, Army provides them real-time 
access to an automated system that gives them the status of 
every position for which they have applied. They know when 
their application has been received and processed, whether they 
have been determined qualified and/or eligible, and whether 
they are referred to the selecting official. They are also able 
to quickly learn when a selection has been made. At any stage 
in the process, they are provided access to HR staff via an 
automated help desk that can address their questions regarding 
decisions that have been made in regards to their application.
    The Army regularly uses nine direct-hire authorities to 
expedite hiring. These include 24 healthcare occupations and 
five engineer occupations that support recovery efforts in New 
Orleans from Hurricanes Katrina and Rita. We also use this tool 
for 82 medical positions supporting Walter Reed's mission to 
care for our Nation's wounded warriors.
    To fill our mid and senior level contracting positions, the 
Army began using the Department of Defense expedited hiring 
authority for acquisition positions. The Army has used 
recruitment fairs and partnered with local communities to 
address hiring needs associated with BRAC 2005 and other 
shortage specialties.
    These job fairs and recruiting efforts are just a few 
examples of hundreds of similar events conducted across the 
Army. We continue to aggressively work with DOD and OPM to 
provide managers the tools and authorities needed to 
effectively compete in local, regional, and national labor 
markets.
    In 2007, the Army proposed a new competitive appointment 
authority for the spouses of military members who were killed 
or totally disabled in the line of duty. These military spouses 
are called upon to be the chief source of income for their 
families, but without current Federal employment status, they 
had no entry to Federal jobs absent the current competitive 
examining process. This initiative resulted in the publication 
of Executive Order 13473, signed on September 25, 2008 by the 
president.
    Army leaders at all levels recognize the strategic value of 
human capital planning and view civilians as strategic 
investments. We improved our recruitment of qualified talent. 
We have human capital data that spans decades and seek to 
improve capabilities to utilize it more effectively in the 
overall management of the Army civilian personnel.
    Our recruiting efforts today are critical to a viable, 
diverse, highly-qualified workforce of tomorrow. Our human 
resource professionals, although stressed by the persistent 
conflict, remain dedicated to see this mission through. We will 
continue to work these issues, best practices, and lessons 
learned with our partners and refine our strategies for 
recruiting and sustaining our workforce.
    Thank you, sirs, for the opportunity to appear before you 
today.
    Senator Akaka. Thank you very much, Ms. Duncan, for your 
testimony.
    Now we will hear from Gail Lovelace, your testimony.

TESTIMONY OF GAIL T. LOVELACE,\1\ CHIEF HUMAN CAPITAL OFFICER, 
              U.S. GENERAL SERVICES ADMINISTRATION

    Ms. Lovelace. Good afternoon, Chairman Akaka, Ranking 
Member Voinovich. Thank you for the opportunity to appear 
before you today on behalf of the General Services 
Administration (GSA). I am especially honored to be here with 
you to discuss recruitment and retention of a talented Federal 
workforce during Public Service Recognition Week.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lovelace appears in the Appendix 
on page 52.
---------------------------------------------------------------------------
    GSA was established in 1949 to provide a centralized 
delivery system of products and services to the Federal 
Government, leveraging our buying power to get the best value 
for taxpayers. When I started in GSA a few years ago, we were 
an agency of 40,000 employees. Our mission has not changed, yet 
we stand here today an organization of 12,000. While we 
certainly do not have the numbers that my colleague at Army 
has, I believe that both of our organizations rely highly on a 
competent workforce to accomplish our mission.
    Our continued ranking as one of the best places to work in 
the Federal Government shows that we have placed high emphasis 
on workforce engagement, and this has contributed to GSA's 
ability to be in a better position not only to attract but to 
retain talent.
    Recently, there has been a good deal of concern about 
hiring in the Federal Government. Many say that the process is 
too slow. When the process is slow, reasons can come from 
multiple sources: The manager, the applicant, the human 
resources professional, our policies, our technology, our 
processes. Whatever the reason, we need to break this cycle and 
improve the hiring process across government. We need to be 
bold; we need to be visible.
    Even in this environment, GSA has been able to attract top 
talent. We have taken a number of steps to enhance recruitment 
efforts so that we are positioned to bring the best and the 
brightest to work at our agency. While we have made progress in 
some areas, we continue to face challenges in others, and we 
need to do more; we are doing more.
    In February, we launched a new initiative called Lean 
Hiring. This initiative focuses on specific actions that can be 
taken to improve the timeliness and quality of our hiring 
process. Through Lean Hiring, we are conducting a top to bottom 
review of policies, processes, performance measures, 
technology, the skill level of our HR staff, management's 
understanding of the process, and communication with 
applicants.
    All of this will be used to determine how we can turn 
around the reality and/or perception of slow hiring. Our goal 
is to expedite the process while continuing to hire top talent. 
We are looking for immediate quick wins and long-term solutions 
that focuses on defining the current State, the ideal State, 
and the gaps.
    We have also put a spotlight focus on the recruitment and 
retention of our acquisition workforce. Clearly, acquisition is 
a critical part of GSA's mission. Our efforts in this area have 
increased and will continue to increase over the coming months.
    As I close, please understand that GSA will improve hiring. 
We will be bold and visible. We will improve the overall hiring 
experience for managers, for applicants, and for our HR 
professionals. I look forward to working with our new director 
of the Office of Personnel Management and my fellow members of 
the Chief Human Capital Officer's Council to develop 
government-wide solutions to address issues with the hiring 
process.
    Chairman Akaka, I want to thank you again for the 
opportunity to address you this afternoon. Thanks for all that 
you do and Senator Voinovich, if he were here, to support the 
Federal workforce. And Happy Public Service Recognition Week. I 
look forward to answering any questions you may have.
    Senator Akaka. Thank you very much, Ms. Lovelace, for your 
testimony.
    I am glad to hear the optimism that is in your testimonies 
and look forward to working with you.
    I have a question to all of you, to this panel. I hope that 
you all have had a chance to review S. 736, the Federal Hiring 
Process Improvement Act, which Senator Voinovich and I 
introduced. The bill has a number of provisions related to 
recruitment. For example, agencies must develop targeted and 
strategic recruitment plans and draft clear, concise job 
vacancy announcements.
    I would like to hear your views on the value of strategic 
workforce planning for recruitment, why more agencies are not 
doing this already, as well as any additional thoughts you 
might have on S. 736.
    Mr. Berry.
    Mr. Berry. Mr. Chairman, I think it is--as I mentioned, I 
think it is a great bill. And I think almost every idea in it--
I was talking with our staff on the way up here as we were 
reviewing this and getting ready for this testimony. Almost 
every idea in this, I think we are able to do without 
legislation. And it would be my hope that as we seek to reform 
this process, that we can take each of the steps that you have 
identified--which every one of them are key pieces to the 
puzzle. You do not want to leave any of them out. So we have to 
have all of that input as we move forward in terms of an 
overhaul of the hiring and recruitment process.
    It starts with good workforce planning. When you can think 
ahead as to where your bubble is, where your need is, what is 
your need going to be, then you can develop your targeted 
recruitment from that, and a lot of other things then flow. 
Otherwise, you do shoot in the dark.
    But my hope is--I think it is great legislation. If it 
moves quickly, we will look forward to working with you to make 
it a reality. But I also think that we could also move forward 
without its passage and adopt a lot of these things just 
administratively. And I think working with your staff and 
Senator Voinovich's staff, and the Chief Human Capital Officers 
(CHCO) Council, I think there is many of these things that we 
can put in place and adopt as good practice throughout the 
government and just get them done.
    Senator Akaka. Yes.
    Mr. Berry, Mr. Stier's written testimony suggests that 
Congress consider requiring OPM to create a government-wide 
strategic workforce plan, taking into account the multi-sector 
workforce.
    What are your views on that recommendation?
    Mr. Berry. Mr. Chairman, I think one of the difficulties in 
being here in a month and looking at this, is I think the 
reason why a lot of past efforts have run aground on the 
shoals, is they tried to do too much at once.
    The hiring process has sort of five elements to it: 
Workforce planning, recruitment, hiring itself, bringing them 
in, getting them through security and suitability, and then 
initial training.
    Now, if we try to tackle all five at once, my view is--and 
that is what has been attempted. It is kind of like trying to 
swallow the--as I mentioned before, swallowing the camel whole. 
And my focus in the first year is going to be to look at the 
middle three of that puzzle, to look at recruitment, hiring, 
and security suitability, and see if we can streamline and 
build on the successes that we have, the points that are on the 
board now in terms of what we have been able to do with the 
contract specialist and those other 20 positions. And the 
defense and the intelligence agencies have done some great 
things in working with us. I think together we have worked 
through the backlog on the security clearance issue now and the 
suitability stuff.
    So we are very close to nailing it, and I do not want to 
lose that progress. And so, in year one, my focus is going to 
be on those three, core, center middle functions.
    Now, that is not to say workforce planning and training for 
our initial entry level, you can ignore it. You cannot. But 
what I am going to do is I think I am going to try to tackle--
we are going to look into that in much more depth in year two 
and year three.
    So I think we have to get the middle part right first, and 
then move to that. I am not saying ignore it, but in terms of 
priority and focus of time and energy--if we had unlimited 
resources, unlimited staff, sure, you might be able to try to 
do it all. But that is the approach I am going to take, sir, at 
OPM, is to start in the middle, then work out to the edge.
    Senator Akaka. Thank you for your response.
    Let me get back to the original question for Ms. Duncan and 
Ms. Lovelace; that is your views on the value of strategic 
workforce planning for recruitment and your thoughts on S. 736.
    Ms. Duncan.
    Ms. Duncan. Yes, sir. It is absolutely vital, as Mr. Berry 
has said, to have strategic planning for your hiring, less you 
do not know what you need to hire. You are not using the 
taxpayers' dollars in the best method if you do not have the 
people that you need for the future.
    It is in everyone's best interest to use their strategic 
planning up front so we know what we need. And it is not that 
we know what we need next week or next month or next year; we 
need to know what we need 4 years, 5 years, 10 years out, 
because that is how long in some occupations it takes to grow 
one of those employees. So that is why that strategic planning 
is so important to go far enough out.
    Sir, I kind of like to use the analogy of our hiring 
processes have gotten to be like gaining weight, a pound here, 
two pounds there. You know, it really does not, at the time, 
seem like a big deal. But then all of a sudden, you wake up one 
day, and you have gained 40 pounds, and it is a crisis.
    Well, we have done that to the hiring process. We have put 
on a reporting requirement here, we have put on a regulation 
there, we have put on different procedure here. And all of a 
sudden, we have this hiring process that is just too fat to 
move forward.
    So we need to put it on a diet. We need to take away some 
of those things, such as writing knowledge, skills, and 
abilities (KSAs), that will streamline the process. We do not 
need to put any additional pounds on. I would be very concerned 
about any reports that could not be automated, because in order 
to do manual reports, the HR people who need to be doing the 
hiring have to do those reports. So I do not want to draw them 
away from their main mission.
    Also, as I testified, we do over 6 million applications a 
year. We have to have an automated process for doing that. So I 
need a process that can be used very efficiently by the 
applicant and very efficiently by management. So whatever we do 
has to be an automated process. So that is just something I 
would keep in mind.
    Senator Akaka. Thank you very much, Ms. Duncan.
    Ms. Duncan. Thank you, sir.
    Senator Akaka. Ms. Lovelace.
    Ms. Lovelace. Yes. Chairman Akaka, I believe workforce 
planning is critical to any recruitment and attracting of 
talent into the organization, because you really need to link 
your workforce planning to the mission goals of the 
organization. And that is the time in which you engage managers 
early in the process so that you are making that strong linkage 
between workforce planning and the business needs of the 
organization for today and looking forward.
    We have clearly been doing workforce planning for a number 
of years now. As we initiate our lean hiring process, we are 
looking to see how we improve that process; how do we make it a 
more agile process so that when we have to address some 
significant change, either in our business, or something like 
the Recovery Act being passed, where we really have to shift 
our focus and our resources, how do we change our workforce 
process so that it is more agile and able to meet our current 
needs?
    So that is clearly part of our process, trying to determine 
how we change what we have done in workforce planning. It is 
absolutely a key component of any recruitment effort that any 
agency undertakes.
    Now, your question about S. 736. I certainly read S. 736. 
In fact, the lean hiring teams have actually taken it and done 
a side-by-side analysis with some of the efforts that we have 
under lean hiring. And I have to tell you, we were quite 
pleased to see the similarities of what is in S. 736 and what 
we are doing. And so, we were patting ourselves on the back, so 
to speak, to say, hey, maybe we are doing something right here. 
But again, S. 736, lean hiring, we still have a lot of work to 
do, and we believe we are on the path to make that happen.
    Senator Akaka. Thank you very much for your responses. 
Senator Voinovich.
    Senator Voinovich. Mr. Berry, have you had a chance to look 
at the number of Federal jobs open to external applicants that 
go to people already in the civil service? In your opinion, 
what, if any, impact does this have on the effectiveness of the 
Federal Government's recruitment strategies?
    One of the things that Senator Akaka and I worked on was 
the issue of annual leave tied solely to the employee's years 
of Federal employment. We changed that, to make the Federal 
Government more attractive to mid-career professionals. So I 
would be interested on your comment on that.
    The other is this. We have really worked hard on 
flexibilities. We provided the opportunity to do direct hiring.
    We have given these flexibilities, many of them, and I 
would like to have you do an inventory of them and find out 
just how many people are using the direct hire authority. My 
concern is that a lot of these agencies are not using the tools 
that we have made available to them.
    Could you comment on that?
    Mr. Berry. Senator, I think you have just hit the bullseye, 
if you will. In 4 weeks on the job, one of the things I have 
realized is that you have done and given a lot of flexibilities 
and passed a lot of great ideas that are in the toolbox. And 
the agencies, a number of us have gotten together and worked up 
good solutions. But at the end of the day, it is left to be a 
voluntary approach. And as is often the case in human nature, 
somebody who has been doing something a certain way for 25, 30 
years says, well, do I have a choice? I can keep doing it like 
I have been doing it or I can use your new tool, and I am going 
to have to learn that and work out the kinks. I will keep doing 
it the old way.
    I think we are going to have to work on that. And I, quite 
frankly, I have already had a good conversation with Peter 
Orszag at OMB. There are people who have joked. I do not know 
who to credit the original joke to, but that the Office of 
Personal Management should be called the Office of Personnel 
Recommendations; that in many cases is the case.
    When we come up with a good idea, and if it works, we need 
to make it work for everybody, and institute this, and drill 
these things down with these tools. And so, I am going to look 
to be a strong partner with OMB, where we are going to try the 
voluntary approach again because maybe we just have not 
marketed it right. Maybe we did not explain it right the first 
time, so we are going to try to make it clear and we are going 
to make it simpler. But at the end of the day, if it still is 
not getting used, we have to work with OMB to help make it 
mandatory and drill these things through the agencies, and get 
them used and get them done.
    One quick example. We were talking about the acquisition. 
All of us worked awful hard to take that 72-page document down 
to a four-page document. We went back to one of the agencies 
and said, ``Look, here we have done it. We will give you the 
computer program. We will train your people. Here is the four-
page document.'' And at the end of the day, which one did they 
use? The old 72-page document.
    We cannot re-invent the wheel and have people going back. 
We have to make sure they get used. And I think you are dead on 
with that, Senator, and we are going to figure out how to do 
that, one way or the other.
    Senator Voinovich. These are big picture things that I am 
asking about because you are coming on new. One of the things 
that we discovered is that within the performance 
accountability, or the Government Performance and Results Act 
(GPRA) plan, so many agencies did not include the human capital 
elements needed to accomplish the things that the department 
was undertaking. I wonder if you have had a chance to look at 
some of those reports to ascertain whether or not people have 
taken the issue of human capital seriously in terms of their 
long-range planning.
    Mr. Berry. Just in the last answer, sir, the answer is some 
have, some have not. In discussing with Senator Akaka to the 
last question about workforce planning, to the extent of it, 
all of us would agree it is critically important. But, quite 
frankly, in many cases, the data and the staffing are not there 
to do the job in many of the agencies that we need to do to get 
that.
    So I was sort of coming up with a phased approach of year 
one, of targeting in on the recruitment, the hiring and the 
security clearance side, to get that right this year, and then 
hopefully work with OMB and others to get the agencies to build 
the necessary attention and resources that need to go with it 
for the human resource/human capital side of the equation; so 
that when we, next year, start to work on the workforce 
planning and the initial training approaches, the agencies will 
have the staffing and capabilities, that we will do that.
    The CHCO Council had their first meeting last week. I 
convened an emergency meeting of it to discuss the flu, the 
H1N1 issue, so that we could be making sure that we were 
addressing what needed to be addressed from the human capital 
side on that equation. But our first formal meeting is actually 
next week, May 12.
    So Ms. Lovelace and I have met and are getting ready for 
that, and we look forward to identifying across the board where 
are the weak spots so that we can go to OMB together, the CHCO 
Council can elevate that and say, look, here is something you 
have to help us pay attention to, and you have to get the 
agencies, and the agency heads, and the deputy secretaries, and 
others to pay attention to re-build this capacity, and we are 
going to do that, sir.
    Well, I would be interested in also having you do an 
inventory of whether or not these agencies have really taken 
the human capital part of this into consideration. I am still 
hearing people tell me that when they lay off people or there 
is a little crunch, they get rid of those people first.
    I mean, the whole goal that we had was to elevate this as 
something that is extremely important to the success of an 
organization. And it seems to me--and I will be asking this 
question 6 months from now, which is what is the evaluation of 
whether or not these folks are doing the job. I am sure that 
Ms. Lovelace is----
    You are on the CHCO Council.
    Ms. Lovelace. Yes, I am.
    Senator Voinovich. Sure. I bet you get her in a room and 
have her give you a little insight into what she has observed 
and to help ensure that CHCO Council becomes what we expect it 
to be, a forum where people are coming together, sharing ideas, 
and getting the job done. And it is important.
    I mean, have you thought about who is going to be the 
quarterback over there for that? Have you given any 
consideration to that? I know you have a lot of things on your 
mind, but that is a pretty important role for someone.
    Mr. Berry. Well, sir, I am going to be the chair of that 
council. And like I said, I was the one who convened the 
meeting last week. And your suggestion is a good one. And Ms. 
Lovelace and I sat down and spent an hour and a half yesterday 
doing just what you were talking about, sir. So I am going to 
take it personally very seriously. So if there is a 
quarterback, you are looking at him, and I am going to be 
personally driving that.
    Senator Voinovich. But what you need is some one to help 
you with that job like John Salamone, who worked with me at one 
time.
    Mr. Berry. Absolutely.
    Senator Voinovich. And I think he tried very hard, but you 
know and I know that as OPM Director you have a lot of things 
on your plate. You have to have somebody that gets up early in 
the morning and goes to bed late at night, and really works and 
works and works and works, that comes to you, has a 
relationship with Peter Orszag and whoever is going to do the 
human capital thing over at OMB, to say, hey, this has got to 
get done.
    Mr. Berry. One of the things I was going to discuss next 
week with the CHCO Council at the May 12 meeting was whether 
that executive director, whether it should be a political or 
career person. I can see benefits and positives both ways, and 
I want to get the advice of the council on that before we make 
that call. I would have to say I lean career, but I want to get 
the benefit of everyone's input on that before we make a full 
decision on that and hire.
    But you are right. There will be an executive director. We 
will be hiring that person and getting that, so they will be 
backing up that effort. But I did want you to know I will be 
personally taking it very seriously as well.
    Senator Voinovich. Last but not least--this is a comment 
that I want to make--Ms. Duncan looks like she has got a pretty 
good operation.
    Mr. Berry. Yes.
    Senator Voinovich. Best practice.
    Mr. Berry. I turned to Nancy Kichak here, and a couple of 
your ideas, Ms. Duncan, I said, ``We have to do that.''
    Senator Voinovich. Bring her over for a couple of weeks.
    Mr. Berry. Ms. Kichak was taking good notes. We are going 
to be looking forward to emulating a lot of that and working 
some of those issues out, because we do not need to re-invent 
the wheel. If you have an automated program and it is working, 
I want to buy it. So we are going to be working on that, and I 
look forward to working with Ms. Duncan as well.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich. And 
now we will have the opening statement and questions from 
Senator Burris.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Thank you, Mr. Chairman and Ranking Member 
Voinovich. I want to thank the panel for assisting us. I am a 
little bit green to the Senate, so I am going to ask some 
questions that may seem to be a little redundant, but it would 
also help me.
    I had a friend that used to run the Department of 
Personnel, I think, but he never told me what he did. And I am 
just trying to make sure I understand the extent of your 
jurisdiction.
    Now, do you actually do the hiring for the agencies or you 
recommend to the agencies' personnels that they can hire?
    Mr. Berry.
    Mr. Berry. Yes. The Office of Personnel Management, sir, if 
you will, is responsible for the civil service and the 
regulations under which they operate. We are essentially the 
office of people. We are the people resource of the government, 
so we want to put in place good practices that protect merit 
principles, protect veterans' preference in hiring, which 
oftentimes those two things can--like Ms. Duncan was saying a 
pound here, a pound there.
    Senator Burris. But you do not do the hiring.
    Mr. Berry. Other than for my own agency, no, sir.
    So each agency, then, what we are charged with doing is 
working with the agencies to have in place policies and 
procedures and hiring practices that we have the 
responsibility--I can go in and audit them, and if Ms. 
Lovelace--for example, we come in and check every agency no 
less than every 3 years. And if her practices do not protect 
the merit principles and the veterans' preference system, then, 
under the law, we can jerk her back into line. But, otherwise, 
we work with her and through the CHCO Council to make sure that 
those procedures are in place.
    Senator Burris. So if someone were to send you a resume, 
Director, and they were interested in the Labor Department, 
would they send that resume to the Labor Department or would 
they send it to you at the Office of Personnel Management?
    Mr. Berry. They would come on to what is called USAJobs, 
sir. And they would go online, and then they would file that 
resume. And if they were to say they were interested in the 
Department of Labor, the Department of Labor has--the front-end 
system, if you will, OPM manages.
    So the first contact is through us, and your resume is 
there. Labor has a back-end system, if you will, that is like a 
plug that connects into that, that says, OK, we are hiring 
somebody. Let us look at that resume of the person who is 
interested in Labor. But Labor would actually make the hire.
    Senator Burris. My notes say there are 45,000 vacancies in 
the Federal agencies. Am I correct?
    Mr. Berry. Over the course of the year, there is on 
average--and this, obviously, goes up and down. But it is about 
100,000 jobs a year, across the entire government come open in 
terms of the domestic agencies. Now, the Defense Department 
is----
    Senator Burris. Is something else.
    Mr. Berry [continuing]. Is outside of that.
    Senator Burris. Right.
    Mr. Berry. But the domestic agencies is about 100,000 
openings a year. And when you look at that, about 30,000 of 
those positions--and if the staff would kick me if I am wrong 
or correct me for the record here. I think about 30,000 of 
those end up with veterans' preference programs, and engaging 
our veterans, and re-hiring our heroes and men and women who 
have served. And then about another 10,000 of those are intern 
conversions.
    So that is where you end up, where you hear that number 
that is between 45,000 and 65,000, depending on how things are 
going, that the general public is open for competition. And 
those are the positions that you are thinking of that any 
American can come on to USAJobs and apply for.
    Senator Burris. Now, are you seeing any spike in the 
applications to work for the Federal Government? All these 
high-powered MBAs and mortgage bankers, and Certified Public 
Accountants (CPAs) and lawyers are being fired in corporate 
America.
    Are they looking to the Federal Government now for gainful 
employment?
    Mr. Berry. Senator, it is interesting. And I will let my 
colleagues here help me answer. But what we are finding is, 
obviously, certain jobs, you get a title wave of applications. 
Other jobs, you have a problem where, it is a very competitive 
industry.
    For example, veterinarians right now, across the 
government, our veterinary schools are producing--there are 
more jobs and more demand than the students that are being 
produced, and so, we cannot fill the jobs. So that is where we 
have gone to special tools, like direct hire authority, that we 
have let each agency now--if you find a vet and they are 
walking and breathing, hire them. And that is what we have 
done.
    Senator Burris. What about the MBA or the lawyer who has 
got RIF'ed from the law firm?
    Mr. Berry. Well, now, they have to compete because right 
now, unfortunately, there is a surplus of those, and----
    Senator Burris. Tell me about it. I am getting resumes in 
from everywhere, and I am trying to figure out what do I do 
with all these resumes as a senator, Mr. Chairman. People want 
to come work for the government.
    I say, well, I know Director Berry. I am going to send them 
over there. [Laughter.]
    Am I sending them to the wrong place?
    Mr. Berry. No, sir. You send them to us and USAJobs, and we 
will do our best to link them up. But it is also my job to make 
sure that--I have to protect the merit system.
    Senator Burris. Oh, well, sure. You do not want to be 
violating any laws. No, you do not want to do that.
    Mr. Berry. Right. But we will make sure that if they apply, 
they are treated fairly and they are considered fully for the 
positions.
    Senator Burris. Ms. Lovelace, now the Government 
Accountability Office (GAO) oversees the rules and regulations, 
or what is your role in all this?
    Ms. Lovelace. I am at the General Services Administration 
(GSA). And at GSA, I am the Chief Human Capital Officer. And 
so, I work very closely with Mr. Berry and OPM, making sure 
that we follow through on all the rules and regulations that 
they put in place, and utilize a lot of the tools that they 
provide to us to make sure we can bring the talent into GSA.
    Senator Burris. You are looking for a bunch of people 
yourself, aren't you----
    Ms. Lovelace. Yes, sir.
    Senator Burris [continuing]. With all of these requirements 
that the stimulus package has put on you, right?
    Ms. Lovelace. Yes, sir, we are. And we just posted quite a 
few vacancy announcements on USAJobs and GSAJobs, trying to 
recruit some of the talent we need to be able to do that.
    Senator Burris. Well, maybe some of those MBAs and CPAs and 
lawyers can go on your Web site.
    Ms. Lovelace. We welcome them, sir.
    Senator Burris. And is the civilian population of the Army 
seeing an influx of applications, Ms. Duncan?
    Ms. Duncan. Yes, sir, we are. Normally, we are getting 
around 5,500 resumes per day. We are now up to 7,000 resumes 
per day. And each individual is applying for more positions. 
Usually, self-nominations were about 22,000 per day; they are 
up to 28,000 per day. So definitely, sir, yes, we are seeing an 
influx.
    Senator Burris. And what would be the grade and level of 
most of these? Do you still use the GSA terminology?
    Ms. Duncan. Well, sir, the Department of Defense also has 
the NSPS system. But equivalent, of course, it is the full 
range of occupations that we have. But the majority of our 
vacancies are in the mid range.
    Senator Burris. Well, I know you would have some preference 
to veterans, but do they get a special preference if they are 
an Army veteran?
    Ms. Duncan. Oh, certainly. We follow the government rules 
for veterans' preference.
    Senator Burris. Thank you, Mr. Chairman. I am pretty sure I 
will have some more questions.
    Senator Akaka. Thank you very much, Senator Burris.
    We will move into the second round of questions here.
    Mr. Berry, many private sector firms are gearing up for 
hiring under the Economic Recovery Act. Career Builder has put 
together a Web site devoted to stimulus hiring and even set up 
a virtual career fair schedule for May 19, 2009.
    What initiatives does OPM have to prepare agencies for the 
Recovery Act hiring?
    Mr. Berry. Thank you, Mr. Chairman.
    What we did right out of the box was that some of the 
critical areas that we have discussed today--especially the 
contract and acquisition specialist was one that we tried to 
get right because we knew, with this bill coming, there was 
going to be a lot of funds expended and a lot of contracts 
written up. And if you did not have professionals in place to 
do that, that was going to be an area of great vulnerability to 
the government. So why that streamlining effort was done first 
with that position description, it was forethinking, if you 
will, forward for this issue. And so, I think that has been 
helpful.
    That has allowed, if you will, direct hire authority--just 
as I talk to you about the veterinary situation, for positions 
like this that are essential and critical, we have given each 
agency direct hire authority on the contract acquisition front. 
So that, right now, if somebody comes in, some of those MBAs 
and those lawyers that Senator Burris was talking about, and 
they are qualified and know how to handle Federal regulations 
and contracting procedures, they can be hired immediately by 
the agencies and put to work.
    So that is one of the first steps we have put in place, 
sir.
    Second is we have been working through the CHCO Council to 
identify what other positions they need help on and what other 
positions are critical. GSA and I, for example--Ms. Lovelace 
just asked for some special authorities that would allow her to 
bring retirees back and allow them to be double paid for a 
period of time so that they could be re-engaged in some of 
these critical areas that she needs to do to handle these 
emergency funds that we have got to get obligated this year to 
help get this economy moving.
    So we have approved those authorities for her, and we do 
that on an agency basis where that is needed. And so, we are 
going to be next week at the CHCO Council identifying what else 
we can do and how else we can make sure that agencies have what 
they need to get the people, that they can get those funds on 
the ground as the president wants.
    Senator Akaka. Mr. Berry, the USAJOBS.com Web site is the 
most common way for agencies to announce Federal job vacancies 
and recruit candidates. This is a useful tool, but too many 
agencies stop right there. I believe that many agencies need to 
take a more proactive approach to recruitment.
    What steps are you taking to encourage more proactive 
recruitment?
    Mr. Berry. Mr. Chairman, I think that is a great question, 
and it goes right to the point of one of the things I hope to 
be able to do, is to work with the Michigan and Ohio 
delegations on, for example, that job fair we were talking 
about with people from the auto industry who either have been 
laid off or are facing layoffs in the very near future, so that 
we can get job fairs on the ground and try to match----
    Senator Burris, just like you were saying, if there is an 
engineer who is getting laid off from Chrysler or from General 
Motors, and we have a shortage of engineers in the Federal 
Government right now, let's make that a marriage made in heaven 
and hire that person, and get them to work right away for the 
Federal Government.
    So we are going to look at much more aggressive and 
creative recruitment approaches, sir, not just relying on a 
passive system. Although it is a great system, it needs to get 
better, and it will. And it needs to be more user friendly, and 
we need to do that. And it has got to be--I was interested in 
Ms. Duncan's idea about the interactivity, where you can follow 
and check on where your resume is and the status. The trouble 
we have is we have so many, it is hard sometimes to connect 
that up as accurately as we want to. And so, I am going to get 
with Ms. Duncan and figure out how we can do that better.
    But those are just a few of the steps, Mr. Chairman, and I 
would defer to my colleagues for other good suggestions.
    Senator Akaka. Mr. Berry, you testified about the 
importance of an essay to use the application process. I am 
encouraged by your work to make job announcements more clear 
and to simplify the applications process. As you know, however, 
many job announcements still are filed with confusing jargon 
and require lengthy knowledge, skills, and ability essays, 
which may deter candidates from even applying.
    How are you addressing this problem, and do you believe 
legislation addressing these specific issues would be helpful?
    Mr. Berry. Mr. Chairman, I have to tell you a funny story. 
My first week on the job, I had a hearing on the House side, 
and I talked about this. I have to say, I mentioned when people 
were explaining the hiring process and a lot of the terminology 
that was used in it, after about 2 hours into the briefing, I 
said I felt like I had uncovered the lost language of Atlantis 
because it was so specifically written. I had to stop them 
almost every other word in the sentence and say, what does that 
term mean, what is that acronym?
    I am little afraid to say that here I am now 4 weeks into 
the job, and I am starting to actually understand the language. 
It is dangerous. It is sucking me in. I am trying to keep 
distant enough from it, sir, so it does not overtake us.
    But I used an analogy in a speech earlier this week that in 
our prairie grassland systems, oftentimes you need a fire, a 
controlled burn, to burn off the dead grass, and that is the 
only way that fresh grass can grow. We need a controlled burn 
through our regulations and through our building that will take 
out a lot of the dead wood, old language, and KSAs with it. And 
my hope is if we can clear away a lot of that, and sufficient 
amounts of it, we are going to see some fresh growth there that 
is going to be in plain English, that Americans across our 
country can apply for jobs, know what they are applying for, 
match their resume to it, and have a fair shot at competing 
fairly for it.
    Senator Akaka. Mr. Berry, our second panel person, Ms. 
Rix's written statement describes the benefits of using a 
structured questionnaire to simplify the application process 
and help applicants understand job requirements.
    Is OPM encouraging more extensive use of structured 
questionnaires in place of essays?
    Mr. Berry. Yes, sir, as well as moving to the more resume 
approach. I mean, most Americans are used to applying for a job 
with a resume. And I think we need to be fair and careful. You 
know, I never use the same resume twice. When I was applying 
for jobs, you would always update it; you would tailor it to 
the job you were applying for.
    So I do not want to mislead Americans and say--they are not 
going to serve themselves well if they just create one resume 
and use the same resume to apply for 20 different jobs. 
Hopefully, people are going to be smart just like they are with 
the private sector. They are going to tailor that resume to the 
position that they are applying for that allows them to come to 
the top. And they need to because, right now, in many of these 
positions, the popular positions, we are not getting just 10, 
20, 30, or 100 resumes. We are getting thousands of resumes for 
positions, and weeding through those is quite an arduous task 
that we are wrestling with.
    So we are going to work on that, Senator. I think the 
resume approach is the way to go. We hope to move to that more 
carefully and quickly over the course of this year, and I think 
you are going to see good results from it.
    Senator Akaka. On this question of streamlining jobs, Ms. 
Duncan and Ms. Lovelace, I would like to follow up with you.
    What are your agencies doing to streamline job 
announcements?
    Ms. Duncan. Sir, we certainly are looking at our job 
announcements, and we are looking at the system to update our 
automated system, where you go in and ask the applicant certain 
questions and streamline the process that way. In fact, we are 
going into a pilot test of it. We are starting the training 
this month. So even though we have a good system, there is 
always room for improvement, so we are constantly looking at 
that.
    Senator Akaka. Thank you. Ms. Lovelace.
    Ms. Lovelace. I actually could answer in the same way. I 
happened to go on our Web site the other day to take a look at 
a couple of our vacancy announcements. The staff is certainly 
telling me that we have already streamlined some of them. And, 
yes, we have, but, clearly, I think we can do a lot more to 
streamline that process.
    Mr. Chairman, if I may, I would like to add on to something 
that Mr. Berry talked about related to recovery. You asked him 
what was OPM doing. But I actually think OPM is doing a lot 
more than what he suggested to you. They have been working with 
agencies to be able to identify the recovery jobs on 
USAJOBS.gov. If you go on the site, you can actually see that 
it is a recovery job, it is clearly identified that way, and I 
think that is going to help us fill our jobs quickly.
    I also love the partnership that we have with them, that 
when we need a tool like dual compensation waivers for our re-
employed annuitants, we are able to work with OPM to get those 
special authorities that we need, in fact, to help us fill 
those critical jobs.
    As you know, we really do not have a lot of time to get all 
of our recovery work done, and so it is very important that we 
are able to hire skilled talent, not the people that are coming 
in that we have to train, but skilled talent that can come in 
and hit the ground running. And we think hiring re-employed 
annuitants is a really good way for us to be able to meet that 
change.
    Senator Akaka. Thank you very much, Ms. Lovelace. Senator 
Voinovich.
    Senator Voinovich. I just wish I knew that everybody had a 
Gail Lovelace.
    Ms. Lovelace. Thank you, Senator.
    Senator Voinovich. Obviously, you understand workforce 
flexibilities. We ought to grant them, I think, in some of 
these agencies to say, there they are, you can use them now, to 
eliminate some of the paper work.
    You are in a strategic position. It is like somebody should 
be sitting back and saying we have all this going on out there, 
and then look at various agencies to see where you have some 
critical spots that we have had some difficulty, like the 
veterinarians.
    I will give you an example of how this can work. Five or 6 
years ago, I had the Nuclear Regulatory Commission (NRC) under 
my jurisdiction. I still oversee NRC as Ranking Member with Tom 
Carper. But anyhow, we anticipated that there was going to be a 
real need for people at the Nuclear Regulatory Commission 
because we knew that a lot of them were going to be retiring. 
We also understood that we would be getting some applications 
for nuclear reactors. For example, right now, we have 17 
applications for 26 reactors. So they are not only going to 
have to do the job of re-licensing, they are also going to have 
to have the capacity to do the applications coming in.
    So we got out and contacted Massachusetts Institute of 
Technology (MIT), Ohio State, and the University of Michigan. 
We even got money from the Department of Energy, I think it was 
$15 or $20 million, as seed money to keep students interested.
    So I am just saying, as you look back and you say, well, we 
need more vets, the word should go out. We need the vets here, 
we need the vets there; maybe even look at some of the 
veterinarian schools--I mean, it is harder to get in the 
veterinarian school at Ohio State University than the medical 
school.
    But I am just saying you have this wonderful opportunity, 
and I would think to look back and say, how do we really take 
advantage of this situation, and be very strategic? You are 
getting all these applications. Well, they ought to be 
prioritized. Hey, this is our shot, man. We can get some people 
that ordinarily maybe we might not be able to get. It is about 
the big picture.
    Let's get into specifics. Security clearance. This issue 
has been on the high-risk list for a long time. Senator Akaka 
and I thought the Administration was going to do something. The 
Bush Administration said, you know what, we have looked at this 
thing and we have to start from scratch.
    So they put in a lot of work, and you had some really good 
people that were on that. You had OPM, the Office of the 
Director of National Intelligence (DNI), and General Clapper 
over at the Department of Defense. And it is my understanding 
that this clearance application was ready to be used at the end 
of December of last year, and now it is on ``hold,'' pending 
further review by OPM.
    I would like you to commit today that you can get back to 
us in 2 weeks, where we are with this. I am tired of it. I want 
this off the list before I leave the Senate.
    Mr. Berry. OK. Thank you, Senator.
    I share your concern on it. I actually have a meeting with 
those gentlemen next week about this very issue, sir, and look 
forward to this. I was not aware that this was pending with us, 
Senator, so that is the first that I have heard that we are on 
hold on this. So I will get to the bottom of that, quite 
frankly, and get back to you.
    I can tell you this. There has been some good news and some 
progress. And this is one where we have worked in close 
cooperation and partnership with the Department of Defense. 
There was a 3-year backlog in doing the investigations on folks 
and getting it over, and DOD transferred that function to OPM. 
And I have met with and been briefed by our Senior Executive 
Service (SES) who leads that, a woman named Kathy Dillaman. And 
she, God bless her, has done a pretty darn good job, and the 
Defense Department recognizes that.
    We have worked through the 3-year backlog, and the average 
time line for every investigation right now is 90 days.
    Senator Voinovich. Listen, I am aware of that. They have 
done a better job; we are making progress. But the thing that I 
am referring to is the revised clearance form. And according to 
my information, OPM is holding it up.
    Mr. Berry. Well, Senator, I will find out about that. Like 
I said, that is news to me. I have no letter pending from the 
Defense Department or CAA that has been brought to my attention 
in the 4 weeks I have been on the job, and no one has called me 
from those agencies. So I am a little blindsided here about 
that, sir. I will get to the bottom of it and find it out. But 
I can tell you I am meeting with both of those gentlemen at the 
White House next week, and I will get to the bottom of it.
    Senator Voinovich. Thank you.
    Ms. Duncan, do you use any third-party groups to recruit or 
do you do it all on your own?
    Ms. Duncan. Sir, we, of course, partner with OPM. In terms 
of--are you referring to private agencies?
    Senator Voinovich. Yes.
    Ms. Duncan. I cannot say that it is never done out there 
because much recruitment of the volume that we do, it is 
possible. I am not aware of it, but I can certainly find out 
and submit that for the record.
    Senator Voinovich. Have you looked at your budget in terms 
of the money you need for advertising and technology and 
things? Will it allow you to do the job that you need to do?
    Mr. Berry. Senator, that is something we are going--the 
budget came up today, and, obviously, that was kind of pretty 
much in the bag and in the box, if you will, when I walked in 
the door. So I did not have much of an opportunity to have much 
influence on that. I think we will have the flexibility, 
hopefully, to work with the Subcommittee, both here and with 
the Appropriations Committee.
    We might need to move some things around to have that 
flexibility because I do not know--right now, it is an 
interesting thing. Thirty percent of our budget is controlled 
by direct appropriations and direct response to my tiller, if 
you will. Almost 65 to 70 percent of the budget is direct 
reimbursable as services to the agencies. And so, that somewhat 
responds to my tiller, but, as you can imagine, it also 
responds heavily to who is paying the bill.
    Senator Voinovich. Well, I know this. The Administration 
has come in, and they have had to put a budget together. And 
probably the next budget will be the one that will reflect the 
real priorities of the Obama Administration--I know how that 
is; I have been through it.
    But the thing that I want you to know is that Senator Akaka 
and I are very interested in giving you the resources that you 
need to get the job done----
    Mr. Berry. Well, thank you, Senator.
    Senator Voinovich [continuing]. Now in appropriations. I 
just want to let you know that I would like to know what you 
need.
    Mr. Berry. Great.
    Senator Voinovich. And I know you are going to have a 
certain muzzle on you because of the OMB, but the fact is that 
I do not want, a year from now, to have you come in and testify 
and say, I am sorry, but we do not have the resources to get 
the job done; and if you only did that, I would be in a better 
position to do what you want me to do.
    I think we have a lot of that in a lot of other agencies 
here. I think we have short-circuited them. They have not paid 
enough attention, having the right people with the right 
knowledge. Too often, we are asking you to do a job, and we do 
not give you the people and we do not give you the resources to 
do your work.
    So I really want to know about that, and I am sure Senator 
Akaka wants to know the same thing. And I would also like to 
get an answer to a question that I asked 10 years ago. What 
percentage of these department budgets are being used for 
training?
    Mr. Berry. Well, that is a great question, sir. And we will 
get back to you on the record on that.
    Senator Voinovich. OK. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich.
    Mr. Berry, during your confirmation process, you said that 
you envision yourself as the ``Recruiter in Chief'' for the 
Federal Government. That is a big task and an important one. I 
understand OPM provides policy support to Federal agencies on 
recruitment, but does not have one office focused on 
government-wide recruitment and promoting the civil service.
    What do you think about creating an office that focuses 
solely on Federal recruitment?
    Mr. Berry. Senator, one of the things I am looking at right 
now--and I was actually discussing with Ms. Lovelace yesterday 
and will be discussing more with my colleagues at OPM and 
through the CHCO Council--is our current organizational 
structure is not really functionally driven. It is not 
functionally based. And so, it is very hard to track exactly 
where the accountability, where the responsibility for those 
functions are.
    So one of the things we are looking at, and we will look 
forward to be doing, is to try to create greater functionality 
in our organizational chart. I think that is going to be 
helpful not only for our own employees and our managers, but 
also for the CHCO Council. People need to know where to go, and 
there is no question that recruitment is going to be one of 
those key functional areas. So it has got to jump out at you, 
and it has got to be easy to reach, and it has got to be fully 
staffed.
    I can promise you this. Part of the reform in this effort 
is not just on the hiring--I look at this as a two-sided coin 
we have to get right. We have to fix the hiring process, but, 
we at the same time, have to fix our recruitment process so it 
can be targeted, aggressive, enthusiastic; that we can use 
every approach that the private sector uses, from job fairs, 
targeted advertisement, being smart about how we can use some 
of these new technologies. Wouldn't it be great if a job 
announcement would fit on the Twitter system? And getting that 
word out there.
    And so, we are going to do that. I look forward to coming 
back to you, sir, within the next year and, hopefully, having a 
much more functionally driven organization that will call out 
recruitment and do just what you identified, sir.
    Senator Akaka. Thank you. This will be my final question to 
the panel.
    We have heard many recommendations and suggestions made to 
improve the recruitment process, and we will hear more from the 
second panel. I would like each of the witnesses to identify 
the top three recommendations that you believe would improve 
the recruitment efforts of Federal agencies.
    Let me start with Ms. Duncan, Ms. Lovelace, and then Mr. 
Berry.
    Ms. Duncan. Sir, I would go back to my previous analogy of 
gaining too much weight. We need to get the hiring process on a 
diet; we need to take off the things that we absolutely do not 
need; and we need to concentrate on what is really important, 
finding the best candidate for the job. And so, I would like to 
roll all three of those into one answer and say, we just need 
to get back to the basics.
    Senator Akaka. Ms. Lovelace.
    Ms. Lovelace. I would like to see us actually engage 
management more early on in the process and really work on 
improving our workforce planning, and how that leads to them 
being able to accomplish their mission in a much more 
aggressive way.
    I would also like to get back to the basics, as Ms. Duncan 
is talking about. And that is really why we have done lean 
hiring. When I think about the basics, I am looking at 
improving our Information Technology (IT) systems, our 
processes, our human capacity to do all of this work, and to 
upscale our workforce. I am going to stick with those two.
    Senator Akaka. Thank you. Mr. Berry.
    Mr. Berry. Mr. Chairman, I would have two as well. The 
first would be plain language, and I think we can do that. The 
second, it really comes directly from the President. And that 
is, we have to make government cool again. And I have become an 
old fogey myself. I turned 50 this year, and so I may not be 
the best person to talk to about ``twittering'' and a lot of 
the things that we need to be doing. So I am going to be smart 
enough to hire some young folks. And so, one of those wolf pack 
teams I have been talking to you about is going to be led by 
graduating students who are coming right out of their MBA/MPA 
programs right now.
    I figure, if you want to stay cool, do not come to Ms. 
Lovelace and me for the ideas, although she is much younger. We 
have to go to the next generation. We have to leap frog and 
pick their brains for how we can make it cool, and how can we 
reach kids, and how can we connect up so that the next 
generation can answer the President's call to come to the 
service of their country. We have to succeed in that, and we 
are going to leave no stone unturned in doing that.
    So making it cool again, so that the next generation will 
fill the retirement wave, that when we (Ms. Lovelace, Ms. 
Duncan, and I) 30 years from now are ready to retire, there 
will be a next generation ready to fill those spots. And that 
is one of the things we are going to do, sir. So I would narrow 
it down to two for you: Plain language and being cool.
    Senator Akaka. Thank you very much, Mr. Berry, Ms. Duncan, 
and Ms. Lovelace, for your testimony as well as your responses 
to all of our questions. And I want to tell you, thank you very 
much for all your recommendations, and we look forward to 
working with you to improve our system. You have been very 
helpful to this Subcommittee, and I thank you very much for 
being here.
    Mr. Berry. Thank you.
    Ms. Lovelace. Thank you, sir.
    Senator Akaka. Our second panel will be Max Stier and Linda 
Rix. Mr. Stier is the President and Chief Executive Officer of 
the Partnership for Public Service, and Ms. Rix is the Co-Chief 
Executive Officer of Avue Technologies Corporation.
    It is a custom of this Subcommittee to swear all witnesses 
in, so I ask you to please rise and raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Stier. I do.
    Ms. Rix. I do.
    Senator Akaka. Thank you very much. Let the record note 
that the responses were in the affirmative.
    I just want you to know that your full statements will be 
made a part of the record, and that your oral statements should 
be 5 minutes. Let me say again, welcome to both of you, and Mr. 
Stier will you please proceed with your statement?

   TESTIMONY OF MAX STIER,\1\ PRESIDENT AND CHIEF EXECUTIVE 
            OFFICER, PARTNERSHIP FOR PUBLIC SERVICE

    Mr. Stier. Mr. Chairman, thank you very much for inviting 
me here, and thank you for all the amazing work you have done 
for public service, including authoring the resolution 
establishing Public Service Recognition Week, recognition that 
the Congress has given, which I think is so important, and for 
speaking to the Service to America Medals finalists yesterday. 
You will note that you received a rousing ovation when it was 
mentioned that you are authoring a piece of legislation on 
fixing the hiring process. It is hitting a real chord.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stier appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    There clearly is a huge opportunity here. We all know that. 
We are seeing a generational wave, the 1930s, 1960s, or 1970s, 
and now we estimate that there will be upwards of 600,000 jobs 
that will be filled in the next 4 years, the first term for 
President Obama. It is going to be setting the traces for 
dealing with today's problems, but also future problems.
    There clearly needs to be a lot of things done, and I break 
them down into a couple of categories. One is the blocking and 
tackling, the very basic things. And we have talked a fair bit 
about the hiring process, or you have spoken about the hiring 
process, which is absolutely vital. Your legislation is 
terrific.
    Again, I always think that there are things that can be 
done in addition to that. You touched on one of them, which was 
a question about a government-wide human capital plan. And I 
would like to have an opportunity, if it is possible, to talk 
further about responding to Mr. Berry.
    Unfortunately, I think the time frame we have requires us 
to do everything at the same time because in the here and now, 
we face that massive wave. We cannot wait a year. And, frankly, 
as the director himself said, if you do not do your planning 
right, then you are shooting in the dark. You have to start 
there. And we do not have a government-wide plan.
    Even Senator Voinovich talked about the need for nuclear 
engineers. In the testimony that Mr. Berry gave, he talked 
about acquisition professionals. You need to have full field of 
view. And single agencies looking at their needs is important, 
but the government has to operate as one corporate entity, and 
that requires somebody with a government-wide view--and that 
has not happened, and I think we lose a lot of opportunities as 
a result. So I would posit that is real important.
    A second thing that would be dramatic would be requiring 
every agency to map their hiring process and make it public. I 
think that transparency would create an incentive for change in 
a very dramatic way. I bet you most agencies do not really know 
what their hiring process looks like, and I bet they would 
respond to changing it if they had to make it public. So one 
area for the blocking and tackling would be the hiring process.
    Another would be student internships; again, very basic. 
The report that we put out, being generous, the government 
converts only 6 percent of its student interns into full-time 
employees. Army does 58 percent; that is terrific. That is a 
normal benchmark. You have to be starting from the beginning, 
looking at student interns as a primary source of talent, and 
we do not do that right now.
    Beyond the blocking and tackling, we need inspiration. And 
I would love to see you take the leadership role on the 
Roosevelt Scholars notion, which is scholarship for service. 
And the idea, really, is very straightforward, and that is the 
civilian ROTC. The military gets 40 percent of its officers 
from the ROTC program. We do not need to duplicate it at that 
scale on the civilian side, but it would be a way of truly re-
branding government service by creating a civilian ROTC-like 
program.
    I think that in all of this, we have to ask ourselves a 
question. Why haven't things changed already? Clearly, there is 
a lot of frustration, and I think that the question has to be 
addressed at the front end. And I think there are two primary 
reasons for this. One is that we do not have leadership 
commitment beyond the HR leadership in making sure that leaders 
and managers are focusing on these people issues. And the 
second is that we have a lack of transparency, a lack of 
information.
    Senator Voinovich said, I have asked 10 years ago how much 
money agencies are spending on training. It is crazy not to 
know the answer to that question. We do not know the answers to 
a whole lot of things that would have an impact, including what 
the hiring process looks like.
    Case in point. Between 2003 and 2007, I think DHS lost 75 
percent--or 72 percent, almost three-quarters of its career 
SES. We do not know why. We should have been doing exit 
interviews. We should be doing exit interviews of our SES so we 
understand not only why they are leaving but what could be done 
better.
    There are a lot of things we could do in the way of 
developing information that would create a dramatic difference, 
and I would be happy to talk about any of these issues further. 
But, again, I very much appreciate the leadership you have 
taken already and look forward to working with you. So thank 
you so much.
    Senator Akaka. Thank you very much for your testimony.
    Ms. Rix, please proceed with your testimony.

  TESTIMONY OF LINDA E.B. RIX,\1\ CO-CHIEF EXECUTIVE OFFICER, 
                 AVUE TECHNOLOGIES CORPORATION

    Ms. Rix. Thank you, Chairman Akaka. Thanks very much for 
asking us to appear here before this Subcommittee on this 
issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Rix appears in the Appendix on 
page 70.
---------------------------------------------------------------------------
    My name is Linda Rix, and I am the Co-Chief Executive 
Officer of Avue Technologies Corporation. We are a company that 
provides a technology platform that is Web based, and it is 
provided specifically to enable Federal managers and hiring 
managers, as well as HR professionals, a method to efficiently, 
economically, and effectively do hiring. We are part of a new 
media group.
    We are where the rubber meets the road. We are actually 
where operating practices can be examined. We tend to focus a 
lot on data as opposed to anecdotes to determine if something 
is or is not working. One of the areas that may surprise you is 
for every human resource full-time equivalent (FTE) that exists 
in the Federal Government at roughly an average labor rate of 
$140,000 a year, that FTE will hire 12 people, 10 to 12 people 
per year.
    So the hiring process does underscore, and the results of 
the hiring process underscore, the importance of the 
legislation you have proposed. I would say that even though we 
know that much can be done within the existing framework and 
within the existing administrative processes, that your 
legislation, and the key reason for it, will produce change.
    Change is very difficult in the Federal Government sector. 
We have a lot of experience trying to get agencies to change 
various practices. And what we have learned from that is that 
if legislation is proposed, and if governing rules are 
developed around that legislation, that it gives permission for 
change to occur, which is one of the most important things that 
can happen here. So we believe in the Federal Hiring Process 
Improvement Act, and we think it is necessary, and we think it 
is timely.
    I have a couple of things up here that I just want to point 
out to you with respect to new media in terms of economical 
capabilities to do successful recruiting. One of them is this 
chart over here,\1\ and it may be a little bit confusing, but I 
just want to point out a key statistic.
---------------------------------------------------------------------------
    \1\ The chart from Ms. Rix appears in the Appendix on page 73.
---------------------------------------------------------------------------
    When people go online to search for job opportunities, at 
that point, 97 percent of the searches are for specific jobs. 
Let's just take engineering since we have that theme. Those job 
searches are done through MSN, AOL, Yahoo!, and Google. Eighty 
percent of the applicants Avue sources for Federal Government 
agencies come from those four sources, and 10 percent or less 
come from USAJobs. So it is important to have an Internet 
presence.
    The second chart that you are seeing there is our portal 
for the stimulus hiring that the U.S. Forest Service is doing, 
which is an Avue client.\2\ That is a specific job portal 
designed just to recruit jobs for their stimulus hiring 
initiative. Not surprisingly, applicants prefer sites like 
this, that are tailored to their specific interests and their 
specific needs.
---------------------------------------------------------------------------
    \2\ The chart referred to appears in the Appendix on page 74.
---------------------------------------------------------------------------
    We are the technology solution that the Department of 
Defense has determined they will be using in the future. We 
have here two job portals, again, specific to procurement and 
acquisition personnel, and hiring of medical personnel. We are 
able to produce information on these job sites that takes a 
very long vacancy announcement and puts it into a form that is 
a very simple job summary. It looks just like this chart that 
you are seeing here. It focuses on a single screen image in 
which all the crucial information is provided.
    So there is not a lot that has to be done that has not 
already been done. There are plenty of agencies that have great 
experiences with applicant involvement, with applicant 
relationship management. They also have great experiences with 
category rating, the use of alternative appointing authorities, 
and other types of flexibilities. That message needs to come 
out, but for other agencies to start adopting those practices, 
we really need your legislation, and we need you to do more 
along those lines because it is a crucial piece of this.
    One other point that I think underscores this--and I want 
to get to it because of the common complaint that the Federal 
hiring process is daunting. What Avue has found is that 92 
percent of the applicants that start the structured 
questionnaire will complete the questionnaire and submit an 
application. So it is a 92 percent retention rate. So that 
tells us a lot about the approach and how the approach can be 
used to improve retention.
    We also are very good at putting information in front of 
managers at the time they are ready to recruit, information 
about their workforce planning goals, information about their 
underrepresentation, information that leads them to understand 
what kind of recruitment strategy they want to have take place.
    Finally, we have agencies that use open continuous 
announcements, of which we are advocates. So instead of posting 
jobs individually, they are consistently recruiting on a broad 
basis all of the time for those positions. That takes 
recruitment down from months to hours. So a hiring manager can 
hire much more rapidly.
    We think that you are doing the right thing. We think it 
could not be more timely. We really would hope that you would 
do more to help make it possible for agencies to adopt some of 
these innovations. Mahalo.
    Senator Akaka. All right. Mahalo.
    Thank you very much for your testimonies. We continue to 
hear that agencies are not using the recruitment and hiring 
flexibilities. And you heard Senator Voinovich highlight 
flexibilities, such as student loan repayment and category 
rating, that Congress has provided to them. We have heard 
various reasons for why agencies are not using them, from 
budget limitations to lack of awareness.
    You heard the first panel's response to this question. But 
my question to you is why do you think agencies are not using 
this range of recruitment and hiring flexibilities available to 
them?
    Ms. Rix. I will take that.
    There are approximately 165 different Federal Government 
hiring, appointing authorities. Each one has a complete set of 
regulations around it. In order for a human resources office to 
find the best avenue to hire people, that human resources 
office really does need state-of-the-art technology. It is 
impossible to implement the governing body of regulations.
    One thing I think that is missing from this discussion that 
does need to be inserted into it, Federal Government hiring is 
done not just for the purpose of filling positions; there are 
also some public policy reasons. Veterans, for example, and the 
ability to hire veterans that are returning from war.
    As a result of that, a lot of the policies that we have in 
place are designed to help with respect to those kinds of 
things. What we have done is we ask applicants through a 
structured questionnaire, a series of questions. And then when 
the hiring manager sees the list of candidates, that hiring 
manager can see all the possible ways that person can be hired. 
That person, not just all the possible ways a vacancy can be 
posted, but all the possible ways a person can be brought on 
board into the government, whether it is a Veterans 
Readjustment Act (VRA), whether it is a returning Peace Corps 
volunteer, whatever possible flexibility.
    There is one paradigm we have to overcome--and I am hoping, 
very hopeful, that your legislation will help with this. One 
paradigm we have to overcome is in the traditional HR world, HR 
specialists see their role as screening out applicants, not 
screening them in, and often, these regulations are used as a 
method to do that. So one thing that helps with that is being 
able to have the capability to apply all the rules against a 
particular applicant and say, this applicant can actually be 
hired this way. And that points to different appointing 
authorities and different hiring flexibilities.
    I would suggest that it is only possible to do that, 
really, with robust technology. It would be very difficult to 
do that in a paper manual process or in some of the processes 
that Federal Government agencies use today.
    Senator Akaka. I'd like to follow-up on that. Many Federal 
agencies have limited resources to invest in recruitment 
programs. You testified about the value that technology systems 
can add to the recruitment process.
    How much of an upfront investment do such systems require, 
and do you believe they ultimately are cost effective?
    Ms. Rix. I believe that in traditional use of technology, 
it was cost prohibitive. In today's world, both with new media 
and the capability to economically reach millions and millions 
of people--every year, Avue processes millions and millions of 
applicants. Each applicant is treated as if they are a unique 
entity. They receive e-mails about their status. They have 24/7 
capability to look up their status and look up where the hiring 
action is in the process. They get 72-hour notifications if 
they started to apply for a job but did not complete it and the 
announcement is closing.
    All of that is done at a very inexpensive level because 
Avue offers its services on what is called a Software as a 
Service model. There are no capital investments. There is no 
need to buy hardware. There is no need for major capital 
investments like you would find in a very big major software 
deployment.
    So we have approached it differently. The Internet gives 
you the broadest possible outreach. We have 1,600 .org and .edu 
sites on our recruitment sources library that automatically 
broadcast every Avue agency job announcement to all of those 
sites; 1,600 sites comprised of diversity groups, professional 
associations, colleges, universities. And it costs nothing. It 
does not even cost the cost of postage. So you have this 
capability to hit a very broad market, and at the same time be 
very specific in how you approach them.
    So I would say to you that as technology has evolved, this 
process has become much more economically feasible.
    Senator Akaka. Thank you.
    Just to give you a chance at this, Mr. Stier, the first 
question I asked was what do you think about agencies not using 
the range of recruitment and hiring flexibilities available? Do 
you have any further comment on that?
    Mr. Stier. Thank you, Senator, and absolutely. Look, I 
think you raised a couple of issues: Resources and information. 
I think the truth of the matter is, there are a bunch of 
different reasons why they do not do it. And I would think that 
the next question is what can you do about it because there are 
a variety of reasons. And I would offer probably at least three 
possibilities of approaching this.
    The first would be to ask the agencies, because one of the 
things we do not do enough of is ask the agencies themselves 
and to collect information from them, to ask them the question 
that was asked here, to prioritize what they need from Congress 
in order to be able to use these flexibilities.
    I think a starting point is you have to really have the 
information about what flexibilities are being used, and it is 
spotty. You have some information on student loan repayment, 
but on a lot of the other flexibilities, we do not really know. 
And so, it would be quite interesting to actually inventory the 
flexibilities, find out who is using them, and to survey the 
folks, what their experience has been, why they are not using 
it if they are not, and what could be done to actually make it 
more useful for them. And I think that would be a pretty 
powerful driver to getting the answers that you need.
    The other piece that I think is true, and I think this is 
writ large and it is not just about the flexibilities, is that 
these are issues that, again, are never given prioritization by 
the leadership in the agency. And at the end of the day, more 
often than not, you have the managers that are walled off from 
the HR hiring process. You have the leadership that does not 
pay attention to the talent issues. And as a result, I do not 
think you will ever get to the right answers unless you are 
able to get those leaders to care enough about it to invest in 
it. And people find solutions. They will find solutions if they 
think it is important. And we just have not had the push to 
make it important.
    Senator Akaka. Mr. Stier, the Federal Government must 
attract and hire employees at all levels of experience. You 
testified about several barriers to successful governmental 
recruiting, which may undermine recruiting of young 
professionals and college students in particular.
    In your view, what is the single most important change the 
Federal Government must make to attract young professionals?
    Mr. Stier. To attract them, I think the most important 
change is for the government to become an active recruiter and 
to get more information out about the opportunities that are 
available to talented people that might attract them, to have 
people that are near peers, present the case for why it is that 
talented people should think about the government.
    We released survey data from Gallup today that suggests 
that there is a much larger appetite for government service 
than there ever has been, a 16 percentage point jump and 
interest in government. I think that attracting them is real 
important. The hiring process is likely to turn an awful lot of 
them off. And then when they arrive and they are not vested in, 
they are going to be turned off even further.
    Senator Akaka. You discussed, Mr. Stier, the length of the 
hiring process as a recruitment barrier as well. As you know, 
our hiring bill would require an 80-day time frame.
    Would that adequately address the problem, and is that an 
achievable time line?
    Mr. Stier. It would not address it in and of itself because 
I think, for many folks, it is not just how long it takes, but 
it is what they know about where they are in the process. If 
you are applying to be a foreign service officer, and you know 
it is going to take 80 days, or 90 days, or 6 months, a lot of 
talent might wait. But if you do not know where you are, if it 
could be 6 months, or a year, or 2 months, then you are going 
to lose a lot of folks.
    If it is a process that is so hard and so unrelated to what 
you expect is relevant to the job, you will also be turned off. 
And it will depend a little bit on the nature of the job, 
because for some talent, you might actually have folks that 
could wait longer than for other positions.
    I think this is, again, something that we need to be 
careful not to have only one size fits all. I think 80 days is 
an outside limit. Again, the research suggests that most 
talent, when you are thinking about entry-level professional 
folks, do not want to wait more than 6 weeks, and that is two-
thirds of the folks. So you need to push, I think, even better 
than that, but it would be an improvement in many circumstances 
if you could get it even down to 80 days.
    Senator Akaka. Thank you. Ms. Rix, I would like to hear 
your thoughts as well on how much of a problem slow Federal 
hiring is, and what should be done about that.
    Ms. Rix. One of the things that the hiring process is often 
criticized about is the length of time it takes. I would 
suggest three things. One is that we have been able, with the 
use of open, continuous announcements and these types of 
specialized recruitment portals, to go from start to hire in 10 
days. We have taken client agencies--I think the outlier was an 
average of 270 days to hire down to under 20. So it is possible 
to do that.
    With the right capabilities, reaching applicants, keeping 
them informed of where they are in the hiring process, I would 
agree with Mr. Stier, is crucial. And the ability to constantly 
reach out to them and ask them, are you still available, are 
you still interested, we are still interested in you; and we 
have filled 10 jobs this week, and in the coming months we 
expect to fill another 50 jobs.
    So what we ask them to do is click here and say, ``Yes, I 
am still interested; keep my application active.'' And so, they 
are automatically considered as new opportunities come up. I 
think that is important to do because it does keep the interest 
level up.
    The third is, I would like to see the bill somewhat 
strengthened with a requirement for the Office of Personnel 
Management, when they take this aggregated data about workforce 
planning and this idea of a single, comprehensive workforce 
plan, I think what is most important for OPM to do is set 
policy--and I am going to pick on the engineering example again 
for a second.
    I think that it is true, not just in the State of Ohio but 
in many places, that you do have talented people that you want 
to bring in whose industries have been adversely impacted and 
whose skills are a critical shortage skill in the government 
today.
    The engineering qualifications standard that is used is 
onerous, almost impossible to implement, and extremely 
difficult. It requires college education and training. Where an 
engineer may certify in the private sector without college 
education or training and still be an engineer, that does not 
cross over into the Federal Government. It is an absolute 
impediment.
    So I think that OPM needs to take these workforce plans, 
identify the critical occupations the government is going to be 
recruiting for, do a deep dive into the actual labor market 
conditions, how we can source these applicants and bring them 
over, how to qualify them through the assessment process so 
that they could be hired more easily and efficiently. And that 
requires some occupational studies, and that requires a great 
deal of effort.
    Unfortunately, OPM's own workforce only has an HR 
population of 7.5 percent. That means that they are at a severe 
deficit in the capability to act on some of these initiatives. 
The organization needs to be strengthened. The appropriations 
side of the organization, which, as Mr. Berry said is 30 
percent, has been operating at that capacity for over a decade. 
It needs to have a strengthened core HR professional workforce 
that can address some of these issues, or we will not be able 
to bring people across easily and efficiently.
    Senator Akaka. Ms. Rix, OPM has developed the End-to-End 
Hiring Road Map that includes ways agencies can improve their 
recruitment efforts. You have heard OPM discuss some of their 
efforts on this front.
    Does the End-to-End Hiring Road Map provide a good 
framework for the reforms you recommend or would you recommend 
re-thinking that road map?
    Ms. Rix. That is an excellent question. I would recommend 
re-thinking the road map only from this standpoint. I love the 
road map. I think it shows a very substantive, thoughtful 
process that goes from workforce planning all the way to 
training and development. You take a person through that whole 
process, and you are likely to have a candidate that has high-
retention capability, will stay with the government, and make 
the government a career, and we need that.
    What I do not agree with, necessarily, relative to the road 
map, is the artificial constraint of trying to dictate that 
process. Often, OPM's best role is to set policy, provide 
leadership and vision, and set standards. When they get 
involved in pieces of the process, that is when we start to see 
them try to operationalize their strategy in a government 
agency that needs to have their strategy more closely linked 
with the agency's mission rather than a governing set of HR 
rules and regulations. Not to say that they are always in 
conflict, but it is not true that the U.S. Government is a 
single corporate entity. It is true that the U.S. Government is 
more representative of the Fortune 500 or, as I call it, the 
Fortune 134.
    So when you look at the number of agencies, the uniqueness 
of their mission, that dictates the uniqueness of their 
recruitment strategy, their workforce planning needs, and their 
employee development needs. I would rather see a framework that 
I would urge that OPM be guided to; let agencies then work 
within that framework and set their own processes and 
procedures in place; adopt the technology solutions that make 
sense to them, and then move that forward.
    I would say, one thing that is really missing is on the 
security side. We are in a situation where a lot of people are 
financially stressed and a lot of people are unemployed. Those 
are two major deterrents to getting a security clearance in the 
government. So you have a compound, cascading effect of a bad 
economy where you have lost your job, and you potentially have 
incurred poor credit ratings as a result of that. And you 
cannot get a job with the government because its own security 
framework and policies is not in tune to realistically what is 
available in the labor market, and that needs to change.
    Where OPM can best spend its time and invest in that time 
is not necessarily just in the new form and these other areas, 
but also, let's look realistically at whether we are applying 
the same security guidelines and protocols that we had in the 
1960s to a workforce that is in the 2000s, and what can we do 
to change that?
    Senator Akaka. Thank you.
    Mr. Stier, would you like to comment on OPM's End-to-End 
Hiring Road Map?
    Mr. Stier. I think that, again, like Ms. Rix, I think it is 
a good effort, and I think it is an important effort to lay 
out. What I envision is it should not be a constraining process 
but should be a guiding process.
    As your earlier question indicated, I actually think that 
agencies can do even better than that, but I think it is 
helpful, again, to have a framework that can be the source of 
at least guidance and conversation across government. I do 
think that the goals have to be even more aggressive than we 
have seen laid out there, but, once more, it is better than 
what exists, in many instances, for many Federal agencies.
    You do have the opportunity, with examples like the Army 
Civilian Personnel System, where agencies are doing really 
great things. And that could be duplicated by other agencies, 
and I think that is something that, as Mr. Berry suggested he 
would do, ought to be explored.
    Senator Akaka. Mr. Stier, the Partnership for Public 
Service wrote a report in 2006 on the need for improvements in 
the government's HR workforce. This issue seems to be an 
underlying challenge to improving recruitment and hiring. I 
would like to hear your thoughts on how we can help improve the 
HR workforce.
    Mr. Stier. Well, I think, again, Ms. Rix pointed out I 
think a very useful statistic about the size of the HR 
workforce at OPM. And that was a troubling statistic, and 
clearly, there is an opportunity to provide resources and 
direction that be increased.
    It is clearly the case across government that you have seen 
a downsizing of that workforce at a time in which there are now 
increasing demands. And just like we are seeing at the Defense 
Department with a plus up of their acquisition workforce, I 
think we need to see a plus up of the HR workforce across 
government. That means more resources and more investment in 
people, and in the training of people. Because one of the 
things that I think is missing is not just the head count, but 
the investment in providing the skills training that the 
existing HR workforce needs and that the new folks are going to 
need to be able to keep up and to excel.
    So this is a problem again writ large. It is more 
pronounced in the HR workforce, but we need to see a heavier 
investment in training and development, particularly around the 
HR function.
    Senator Akaka. Ms. Rix, you testified that outsourcing HR 
functions can lead to a disconnect between HR contractors and 
hiring managers. I would like to hear more about how HR should 
interact with hiring managers and what value this adds to 
recruitment.
    Ms. Rix. One of the things that we have discovered over 
time, the HR workforce in the Federal Government sector has 
been effectively depleted. I believe there are fewer than 4 
percent of the HR professionals that are under the age of 30, 
and the vast majority are retirement eligible. So backfilling 
and hiring, or even growing the size of that workforce to meet 
the impending retirement tsunami, as well as things like 
stimulus hiring and aggressive insourcing efforts, that 
workforce needs to grow and grow substantially.
    The method that agencies have used has been to contract out 
the work to private contractors, who are not knowledgeable 
about the Federal hiring system, do not have real expertise, 
and often end up displacing the Federal HR workforce by taking 
a seat with management instead of having the Federal Government 
employees at the table with management. The net effect of this 
is a cost of operation that is two and a half to five times 
greater than it would be if it were done by Federal employees.
    So when you look at this, that is one focus I would 
encourage you to look at. Insourcing Federal HR jobs is 
crucial. It is inherently governmental. It is working side by 
side with management to manage the workforce more effectively 
and to be able to promote the needs of management through the 
operations in HR that deal with recruitment, staffing, labor 
relations, employee relations, and all of those other 
activities.
    I would also say that one thing that I would encourage Mr. 
Berry to do is to look at that 70 percent that he discussed 
that was fee for service based. That 70 percent of funding is 
going through OPM, but it is going to contractors. It is not 
work that OPM employees are doing; it is work that contractors 
are doing by virtue of a contract vehicle through OPM.
    This worsens the case because now OPM is not necessarily 
inspired to build its own workforce up to be able to provide 
the guidance and the leadership and the proper standards and 
policies that Federal agencies need right now. So I encourage 
this Subcommittee to examine that particular issue and to know 
that it does have an extreme adverse impact on the agility of 
the government when we do need to act quickly, as in the case 
of the stimulus hiring.
    Senator Akaka. Well, I must tell you, your responses have 
been good and very helpful. Let me ask the last question, and 
this opens it up. I have been specifically asking you about 
some things. I would now like to give you the opportunity to 
provide any additional thoughts, or recommendations you may 
have on the hearing today.
    As you know, the hearing is, as we had it announced, Uncle 
Sam Wants You!: Recruitment in the Federal Government. So my 
question is what are your additional thoughts or 
recommendations that you may have on this?
    Mr. Stier.
    Mr. Stier. Well, first of all, thank you very much, again, 
for listening and for soliciting the input, and for the great 
leadership that you have exhibited in this arena because it is 
so important. You have heard an awful lot of stuff here, and 
there is more than could possibly be done given all the 
recommendations here.
    I would point out in listening to the first panel, that at 
least two of them for the agencies mentioned their rankings for 
the Best Places to Work. And, obviously, the Partnership Act 
does that. But what was instructive to me is that it helped 
generate a motivation on their part, that they were being 
ranked on the basis of what their people and their agency had 
to say about them. And I think, to me, that is a place where 
you can continue to push; that if you can actually provide more 
transparency and more information, that incentivizes the kind 
of behaviors that you want in these agencies.
    One very easy example of that is that at the present time, 
the basis of the Best Places to Work rankings is the Federal 
Human Capital Survey, which is conducted by OPM every other 
year. Well, it would be great if OPM actually did it every year 
because then you would have a more frequent basis of 
understanding where these agencies are from their employees' 
perspective, and to help get that information out faster 
because right now the lag time is about 4 or 5 months.
    So, again, the broader concept is to do more to make these 
processes transparent by getting more information out. And, 
specifically, we would love to see the Federal Human Capital 
Survey done annually and the results put out very frequently, 
or rather in a more timely fashion. But, again, thank you for 
everything you have done, and we hope that we can be helpful in 
any way you can direct us. So thank you.
    Senator Akaka. Ms. Rix, any additional thoughts?
    Ms. Rix. Just, really, one, which would be to try to 
encourage government agencies to capture the total workforce 
all inclusive. So we would look at capturing data on the 
civilian workforce, the military workforce, and the contractor 
workforce that is supporting those organizations.
    We believe right now--this is a very difficult estimate to 
get. You have to go to a lot of sources of data. But we believe 
there is a backlog between 200,000 and 380,000 funded vacant 
positions in the government today. A lot of that has been 
produced by the time lag in being able to fill positions, but 
must of it is produced by the fact that agencies often do not 
have good tracking systems to know that they have a funded 
vacancy.
    So when you are trying to manage the workforce, and do your 
workforce planning, and these other things, it is crucial to be 
able to know what is my vacancy rate and what should I be 
focusing on in terms of recruitment from a broader perspective.
    The second is, with only 1.8 or 1.9 million Federal 
employees and a contractor workforce of 10.5 million employees, 
you have a sizable management problem if you do not have 
visibility on the 10.5 million; plus, you are not sure exactly 
how to move quickly when you need to pull them back into the 
Federal workforce as opposed to releasing them out to 
contractors.
    So I would encourage this Subcommittee to take a look at a 
contractor inventory by every agency so we could see the actual 
size of government and be able to look at how interchangeable 
are those jobs, and whether or not we have things out that are 
critical to managing the organization that ought to be brought 
back in to the government sector.
    I would echo Mr. Stier's words. I really appreciate all the 
work that you do. I know that you have been working 
consistently and tirelessly with Senator Voinovich on a number 
of Federal workforce management issues. It is so important. I 
think your staffs are working tirelessly as well. And we really 
appreciate the opportunity to be here, to have you listen to 
us, and to know that there are sources of data and information 
that can provide you good visibility on things as simple as how 
frequently does category rating get used. So thank you so much.
    Senator Akaka. Well, again, thank you very much for your 
responses. You have been very helpful to us. And, without 
question, together we can deal with the challenges that we have 
ahead of us; I look forward to that. Again, thank you for your 
input here and your recommendations, and wish you well in what 
you do.
    Mr. Stier. Thank you.
    Ms. Rix. Thank you.
    Senator Akaka. This hearing is adjourned.
    [Whereupon, at 4:38 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 51024.001

[GRAPHIC] [TIFF OMITTED] 51024.002

[GRAPHIC] [TIFF OMITTED] 51024.003

[GRAPHIC] [TIFF OMITTED] 51024.004

[GRAPHIC] [TIFF OMITTED] 51024.005

[GRAPHIC] [TIFF OMITTED] 51024.006

[GRAPHIC] [TIFF OMITTED] 51024.007

[GRAPHIC] [TIFF OMITTED] 51024.008

[GRAPHIC] [TIFF OMITTED] 51024.009

[GRAPHIC] [TIFF OMITTED] 51024.010

[GRAPHIC] [TIFF OMITTED] 51024.011

[GRAPHIC] [TIFF OMITTED] 51024.012

[GRAPHIC] [TIFF OMITTED] 51024.013

[GRAPHIC] [TIFF OMITTED] 51024.014

[GRAPHIC] [TIFF OMITTED] 51024.015

[GRAPHIC] [TIFF OMITTED] 51024.016

[GRAPHIC] [TIFF OMITTED] 51024.017

[GRAPHIC] [TIFF OMITTED] 51024.018

[GRAPHIC] [TIFF OMITTED] 51024.019

[GRAPHIC] [TIFF OMITTED] 51024.020

[GRAPHIC] [TIFF OMITTED] 51024.021

[GRAPHIC] [TIFF OMITTED] 51024.022

[GRAPHIC] [TIFF OMITTED] 51024.023

[GRAPHIC] [TIFF OMITTED] 51024.024

[GRAPHIC] [TIFF OMITTED] 51024.025

[GRAPHIC] [TIFF OMITTED] 51024.026

[GRAPHIC] [TIFF OMITTED] 51024.027

[GRAPHIC] [TIFF OMITTED] 51024.028

[GRAPHIC] [TIFF OMITTED] 51024.029

[GRAPHIC] [TIFF OMITTED] 51024.030

[GRAPHIC] [TIFF OMITTED] 51024.031

[GRAPHIC] [TIFF OMITTED] 51024.032

[GRAPHIC] [TIFF OMITTED] 51024.033

[GRAPHIC] [TIFF OMITTED] 51024.034

[GRAPHIC] [TIFF OMITTED] 51024.035

[GRAPHIC] [TIFF OMITTED] 51024.036

[GRAPHIC] [TIFF OMITTED] 51024.037

[GRAPHIC] [TIFF OMITTED] 51024.038

[GRAPHIC] [TIFF OMITTED] 51024.039

[GRAPHIC] [TIFF OMITTED] 51024.040

[GRAPHIC] [TIFF OMITTED] 51024.041

[GRAPHIC] [TIFF OMITTED] 51024.042

[GRAPHIC] [TIFF OMITTED] 51024.043

[GRAPHIC] [TIFF OMITTED] 51024.044

[GRAPHIC] [TIFF OMITTED] 51024.045

[GRAPHIC] [TIFF OMITTED] 51024.046

[GRAPHIC] [TIFF OMITTED] 51024.047

[GRAPHIC] [TIFF OMITTED] 51024.048

[GRAPHIC] [TIFF OMITTED] 51024.049

[GRAPHIC] [TIFF OMITTED] 51024.050

[GRAPHIC] [TIFF OMITTED] 51024.051

[GRAPHIC] [TIFF OMITTED] 51024.052

[GRAPHIC] [TIFF OMITTED] 51024.053

[GRAPHIC] [TIFF OMITTED] 51024.054

[GRAPHIC] [TIFF OMITTED] 51024.055

[GRAPHIC] [TIFF OMITTED] 51024.056

[GRAPHIC] [TIFF OMITTED] 51024.057

[GRAPHIC] [TIFF OMITTED] 51024.058

[GRAPHIC] [TIFF OMITTED] 51024.059

[GRAPHIC] [TIFF OMITTED] 51024.060

[GRAPHIC] [TIFF OMITTED] 51024.061

[GRAPHIC] [TIFF OMITTED] 51024.062

[GRAPHIC] [TIFF OMITTED] 51024.063

[GRAPHIC] [TIFF OMITTED] 51024.064

[GRAPHIC] [TIFF OMITTED] 51024.065

[GRAPHIC] [TIFF OMITTED] 51024.066

[GRAPHIC] [TIFF OMITTED] 51024.067

[GRAPHIC] [TIFF OMITTED] 51024.068

[GRAPHIC] [TIFF OMITTED] 51024.069

[GRAPHIC] [TIFF OMITTED] 51024.070

[GRAPHIC] [TIFF OMITTED] 51024.071

[GRAPHIC] [TIFF OMITTED] 51024.072

[GRAPHIC] [TIFF OMITTED] 51024.073

[GRAPHIC] [TIFF OMITTED] 51024.074

[GRAPHIC] [TIFF OMITTED] 51024.075

[GRAPHIC] [TIFF OMITTED] 51024.076

[GRAPHIC] [TIFF OMITTED] 51024.077

[GRAPHIC] [TIFF OMITTED] 51024.078

[GRAPHIC] [TIFF OMITTED] 51024.079

[GRAPHIC] [TIFF OMITTED] 51024.080

                                 <all>

</pre></body></html>
